U.S. Department of Justice
Office of the Inspector General
          

        Review of the Edward Byrne Memorial Justice 

                 Assistance Grant Program 

               Recovery Act Formula Awards 

        Administered by the Department of Justice’s 

                 Office of Justice Programs 

                                      
                                      
                                      
                                      
                                      
                                      




                                               
                                      
                                      
                                      
                                      
                                      
                                      


                             December 2009

Introduction

       The Recovery Act appropriated $2 billion in funding to the Office of
Justice Programs (OJP) for the Edward Byrne Memorial Justice Assistance
Grant (JAG) Program. Of the $2 billion, OJP designated $1.989 billion for
the Byrne JAG Program formula awards and $11 million to the National
Institute of Justice and the Bureau of Justice Statistics (BJS) for work in
support of the Byrne JAG Program. The Byrne JAG formula funds are
awarded to states, territories, and local government jurisdictions to address
crime in a variety of ways, such as training, personnel, equipment, supplies,
contractual support information systems, research, and evaluation. All
50 states, the District of Columbia, and 5 U.S. territories (Puerto Rico,
Guam, Northern Mariana Islands, American Samoa, and the Virgin Islands)
are eligible to receive funding under the Byrne JAG Program. The Byrne JAG
Program is administered by OJP’s Bureau of Justice Assistance (BJA) under
the applicable provisions of 42 U.S.C. § 3750 (2008) and the applicable
provisions of the Recovery Act of 2009.

      The objective of this Office of the Inspector General (OIG) review was
to determine if OJP awarded the Byrne JAG Program Recovery Act funds in a
prompt, fair, and reasonable manner.1 We conducted the review at OJP, the
BJA, and the BJS.2

Results in Brief

       The BJA designed two separate solicitations to award the Byrne JAG
Program Recovery Act funds – one for the states and territories and one for
local government entities. We found that OJP’s BJS developed the funding
allocations for the Byrne JAG Program state, territory, and local awards by
appropriately using the formula established in 42 U.S.C. § 3755 (2008). The
formula authorized the allocation of funds based on a combination of Census
Bureau population estimates for each state and violent crime data reported
to the Federal Bureau of Investigation (FBI). We verified that the population
and crime data used by the BJS to calculate the allocations matched the data
                                                                   
       1
          This report is a non-audit service as defined by generally accepted government
auditing standard 3.26. The report contains technical advice that is not intended to be used
as the primary basis for management decisions. As a result, this report is not intended to
comply with generally accepted government auditing standards.
       2
          This report is the first interim report in a series of reports that we will issue during
our ongoing review of the Department’s management and oversight of the Recovery Act
money allocated to the Byrne JAG formula and discretionary grant programs. In addition,
we are reviewing the use of Byrne JAG funds by a selected sample of state agencies and
their sub-recipients.
         
                                                                            
        

reported by the Census Bureau and FBI, respectively. In addition, we
confirmed that the state and territory award amounts matched the
allocations. We also determined that the BJA acted quickly to develop the
solicitations, set reasonable deadlines for submitting applications, timely
reviewed applications against solicitation requirements, and promptly made
the state, territory, and local awards. Therefore, we concluded that the BJA
awarded the Byrne JAG Program Recovery Act state, territory, and local
funds in a prompt, fair, and reasonable manner.

       While the state and territory awards were made in a prompt, fair, and
reasonable manner, we noted that the BJA did not receive all elements of
the application package as required by the solicitation before awarding funds
to the states and territories. Items missing from the application packages
included complete program narratives, project abstracts, and complete
budget documents. Officials from the BJA stated that the missing or
incomplete items either were not absolutely necessary or could be obtained
after the award was made. However, we noted that when the BJA reviewed
Recovery Act discretionary applications for its Correctional Facilities on Tribal
Lands Program, the BJA rejected applications that were missing program
abstracts or program narratives.

         We believe the BJA should be consistent when it requires that
applicants provide certain elements of the application package as a condition
for receiving a formula grant award. If the BJA believes an item in the
solicitation is not important to the application process, then it should
consider removing it from the solicitation. Alternatively, when applicants
have failed to provide information that the BJA has determined is essential,
the BJA should, at a minimum, prevent grantees from using the awarded
funds until they receive and approve the requested information.

      The results of our review of the formula allocations, application
reviews, and awards are discussed in the following sections.

Verification of Formula Allocations and Award Amounts

      The BJA posted two solicitations for the Byrne JAG Program on the
Grants.gov website – one for state governments and U.S. territories and the
other for local governments.3 Under the Byrne JAG statute, about
60 percent of the funds are designated for state and territorial governments
and 40 percent for local governments. State governments are also required


                                                                   
       3
         Grants.gov is a web site managed by the Department of Health and Human
Services that contains information about finding and applying for federal grant programs.

                                                                       
                                                                      2

                                             
       

to pass through a portion of the funds they receive to local governments
within their states.

      These two solicitations were posted both to the BJA’s website
(http://www.ojp.usdoj.gov/BJA/) and to OJP’s website
(http://www.ojp.usdoj.gov/funding/solicitations.htm). On its website, the
BJA also provided the allocations of funds that each state, territory, and local
government unit would be eligible to receive. The funding allocations for the
Byrne JAG Program were developed by the OJP’s BJS using the formula
established in 42 U.S.C. § 3755 (2008). The formula authorized the
allocation of funds based on a combination of Census Bureau population
estimates for each state and violent crime data reported to the FBI.

      We verified that the data used by the BJS to compute the allocations
was consistent and accurate. Specifically, we obtained the population data
from the Census Bureau website and the violent crime data from the FBI
website and compared it to the data used by the BJS to calculate the funding
allocations. We then independently calculated the allocations for all
56 states and territories, and the 5,472 local governments based on the
formula established in 42 U.S.C. § 3755 (2008) and using the verified
population and crime data. We concluded that the Byrne JAG Program
allocations for the states, territories, and local government units were
correctly calculated by the BJS in accordance with the formula established by
42 U.S.C. § 3755 (2008).

      As of October 13, 2009, the BJA had awarded the Byrne JAG Program
Recovery Act formula grants to all 56 states and territories, and to 3,210 of
the 5,387 local government applicants. Since the state and territory awards
were completed at the time we began our review, we compared the amounts
provided in the allocation computations to the amounts requested in the
applications by the 56 state and territorial governments to determine
whether any states or territories requested more funds than allocated by the
BJS. We also analyzed the award amounts for the 56 state and territory
awards to verify that the award amounts did not exceed the amount
allocated by BJS. We found that none of the 56 states or territories applied
for more than the amount allocated and that the awarded amounts matched
the requested funds for all 56 awards.

       We also analyzed the time it took the BJA to develop and issue the
Byrne JAG Program solicitations, obtain the applications, review the
applications, and make the awards to assess whether the awards were made
promptly. The Recovery Act was signed on February 17, 2009. Less than
3 weeks later on March 6, 2009, the BJA issued both the state and territory
solicitation and the local solicitation. The state and territory solicitation

                                         
                                       3

                                             
       

required that applications be submitted by April 9, 2009, and the local
solicitation required that applications be submitted by May 18, 2009. The
deadline for the local solicitation was subsequently extended to
June 17, 2009. We found that the BJA had awarded all 56 state and
territory awards by July 16, 2009. As for local awards, the BJA had awarded
funds by October 13, 2009, to the 3,210 eligible grant applicants that
submitted complete applications to the BJA. These timelines indicate that
the BJA took prompt action to award the state, territory, and local grants.

       The BJA received an additional 2,177 local government applications for
which it could not award funds because the applications were duplicates,
incomplete, or from localities that were not eligible to apply directly to the
BJA. BJA officials informed us that, after eliminating duplicates and ineligible
localities, it identified 207 eligible units of local government who either had
not applied or had not submitted complete applications. BJA officials told us
that they are in the process of contacting these 207 eligible units of local
government and will give them until January 21, 2010, to submit complete
applications. By allowing these eligible entities additional time to complete
and submit their applications, BJA has helped ensure that all potential
recipients of Recovery Act JAG funding have an opportunity to receive the
funding.

      Considering the formula allocations were calculated in accordance with
the statutory guidelines, the population and crime data used to calculate the
formulas matched the data from the applicable sources, the award amounts
were consistent with the allocations, and the awards were made promptly,
we concluded that the BJA took appropriate actions to award the Byrne JAG
Program Recovery Act awards in a prompt, fair, and reasonable manner.

Review of Applications

      While the BJA awarded the funds in a prompt, fair, and reasonable
manner, we did identify instances where the BJA did not obtain all the
information required by the solicitation before making awards. For each of
the 56 state and territorial applications, we reviewed the application
documentation in OJP’s Grants Management System (GMS) to determine if
the application was complete. We found that 1 application did not contain
the required program narrative; 27 applications had program narratives that
did not include required elements such as organizational capabilities and
competencies, timelines or project plans, or performance measures;
3 applications did not contain the required project abstract; and
6 applications did not include budget details. We discuss the issues
associated with these discrepancies below.


                                         
                                       4

                                                                            
        

       Missing and Incomplete Program Narratives

      The application for one state did not contain a program narrative as
the BJA required in the solicitation, and the BJA awarded the funds without
receiving the narrative.4 However, the BJA placed a special condition on the
award that required the state to provide a program narrative before the
state could have access to the funds.

      BJA staff told us that they accepted the application without the
narrative because OJP and the BJA determined that it was important to
process all Recovery Act grant awards as quickly as possible. BJA staff also
said that using the special condition to prevent use of the funds prior to
submitting and receiving approval of a program narrative is an acceptable
way to process the paperwork quickly, but still ensure proper review of
necessary documentation.

      We agree that the special condition should ensure that the program
narrative is received before the state uses the awarded funds and was a
reasonable approach to attempt to obtain information from the grantee while
also meeting the Recovery Act’s goal of distributing funds as quickly as
possible.

      We also identified 27 applications with program narratives that did not
include 1 or more elements listed as required in the solicitation, such as
organizational capabilities and competencies, timelines, and performance
measures. The incomplete program narratives are discussed below.

       Organizational Capabilities and Competencies. The organizational
capabilities and competencies section of the program narrative should
explain how the organization will track fund drawdowns and grant
expenditures separate from other funding. This requirement is important to
ensure grantees maintain proper controls over funds and documentation to
accurately report Recovery Act funds. However, while the BJA required in
the solicitation that this information be part of the application, BJA staff told
us that the organizational capabilities sections of the program narrative were
not of great significance and that BJA staff would work with the grantees
after the grant is awarded to obtain the information.

      We believe that without evidence that the applicants can accurately
track Recovery Act funds separately from other federal funds, the BJA does
not have sufficient assurance that the grantees will properly manage the

                                                                   
       4
           As of October 29, 2009, the state’s program narrative had not been documented in
GMS.

                                                                       
                                                                      5

                                             
       

Recovery Act funds they receive under the Byrne JAG Program. Thus, we
believe it is important that BJA staff work with these grantees to obtain this
information.

      Timelines. According to the Byrne JAG program solicitation issued by
BJA, the timelines section should provide dates for completing major project
milestones. This data is important to show the BJA that grantees can
implement the project in a timely manner. However, BJA staff told us that
timelines were not a key factor and they would also work with grantees to
obtain this information after the grant had been awarded. We believe that it
is important that the BJA follow up to obtain the timelines because without
them, the BJA does not have a way to easily identify and assess the
progress of major program milestones.

      Performance Measures. The grant solicitation requires each recipient
to develop performance measures and include its data collection
methodology in the application. However, for the 55 program narratives in
the applications we reviewed, only 17 included performance measures
developed by the state or territory to assess whether the project objectives
were being met. Twelve of the program narratives did not mention
performance measures, and the remaining 26 program narratives indicated
that the grantees would either use performance measures developed by the
BJA and the Recovery Act, or develop performance measures at a later date
as the state awards funds to units of local governments.

       While the BJA solicitation required the application to include
performance measures, BJA officials told us that it was not a significant
omission if the applicants did not submit measures with the application
because a special condition in the award document requires each state or
territory to report performance measures in the Performance Measurement
Tool maintained by OJP. However, the special condition in the award
document contains only a general requirement that the grantee agree to
comply with all reporting, data collection and evaluation requirements, and
does not specifically refer to the Performance Measurement Tool. The
special condition also does not provide specific measures that the grantees
will have to report. Therefore, we did not find evidence that grantees are
made aware of the requirement to use the Performance Measurement Tool
or to collect data on the performance measures contained therein. Thus, we
concluded that the BJA needs to follow up with those grantees who failed to
include performance measures with their applications to ensure that they
appropriately use and report on their performance measures.




                                        
                                       6

                                             
       

      Missing Project Abstracts

       The BJA required in the solicitation that applicants provide an abstract
that included items such as the goals of the project, major deliverables, and
coordination plans. However, the applications for three states did not
contain an abstract of the project and BJA staff did not request the abstracts
prior to making the grant awards. BJA staff told us that they accepted the
applications without an abstract because the abstract is not required by law.
BJA staff also stated that the abstract is only used to assist in developing
internal write-ups of the projects and does not affect the BJA’s ability to
review the application or award the funds.

         Based on our review of the use of the project abstract, we agree that
it does not affect the BJA’s ability to review the application or award funds.
However, we noted that when the BJA reviewed Recovery Act discretionary
applications for its Correctional Facilities on Tribal Lands Program, the BJA
rejected applications that were missing program abstracts. We believe the
BJA should be consistent in ensuring that applicants adhere to the
requirements of the solicitation. If the BJA believes an item in the
solicitation is not important to the application process, then it should be
removed from the solicitation. By requiring that applicants provide only the
necessary documents to make award decisions, the BJA can minimize the
resources needed to review the applications and can avoid placing
unnecessary burdens on applicants to prepare and submit application data.

      Incomplete Budget Detail Submissions

      In the solicitation, the BJA required the states and territories to submit
a budget and budget narrative outlining how JAG funds, including
administrative funds, if applicable, would be used to support and implement
the program. The BJA provided applicants a sample budget form that
provided for a detailed breakout of project costs into the following nine
budget categories, as applicable: Personnel, Fringe Benefits, Travel,
Equipment, Supplies, Construction, Consultants/Contracts, Other Costs, and
Indirect Costs.

       We found that the format and level of detail of the budgets varied
significantly among the 56 state and territorial applicants. Specifically, we
found that:

      	 8 applicants submitted a detailed budget in accordance with the
         example provided in the solicitation;



                                         
                                       7

                                                                            
        

             21 applicants submitted a budget that provided a breakout of the
              funds by different departments or programs planned for under the
              grant;

       	 21 applicants submitted budgets that identified only the
          administrative costs related to the grant and provided no details
          about the remaining grant funds;

       	 5 applicants provided a budget with a single line item, but no
          breakout for any of the planned grant expenditures; and

       	 1 applicant did not provide any budget.

      The BJA approved and awarded the grants to all 56 applicants,
although 48 states and territories submitted budgets without all requested
details.5 Six of these 48 states and territories provided no breakout of
planned grant expenditures.

      We asked BJA officials to explain why they awarded funds to the states
and territories with insufficient budget details without first requiring the
applicants to provide more information. BJA officials told us that prior to the
Recovery Act, JAG formula applicants were not required to submit a budget,
and instead submitted only a budget narrative. They said that the decision
to require a budget was made to put more “muscle” into the solicitation and
provide a greater level of detail for the grant managers to review. However,
the officials told us that while the budget information is helpful from a policy
perspective, it is not required by the Byrne JAG statute. The officials also
stated that all of these applicants did in fact have enough information to
conform to the requirements of the law.

      Without detailed budget information, the BJA has limited information
to assess whether recipients will use the funds in accordance with statutory
requirements.6 In addition, a detailed budget provides a reference point for
oversight entities to later evaluate how the grantee is using awarded funds
and whether they have implemented projects that adhere to the statutory
requirements. Detailed budget information, including categories of planned
expenditures, results in greater accountability by recipients for the use of

                                                                   
       5
          The application for the applicant that did not submit a budget was approved with a
special condition that the recipient could not obligate or expend funds before submitting a
budget narrative.
       6
           42 U.S.C. § 3751 (2008) identifies the programs for which Byrne JAG funds may
be used.

                                                                       
                                                                      8

                                             
       

funds by making the use of the funds transparent to oversight entities and
the public.

       In addition, requiring states to submit detailed budget information that
is not used by the BJA places an undue burden on the states to develop and
submit such information. Eight states or territories provided detailed budget
information as part of the award. These states likely contributed a
significant amount of effort to provide the detailed budget information.
However, other applicants that did not submit the full solicitation
requirements were approved for awards equally as if they had fulfilled all
requirements.

       To enhance recipients’ accountability for the use of funds and apply
equal application of solicitation requirements, we believe that the BJA should
enforce a consistent requirement for budgets specifying the detail and
format that is required. While the BJA may not deem it necessary to require
a budget detail breakdown with the standard nine budget categories, some
type of budget detail, perhaps identifying the specific programs being funded
and funding levels, should be required and would not impose an undue
burden on grant applicants. We believe these requirements should be
clearly communicated to the applicants in the solicitation and enforced
consistently.

Conclusion

      In summary, our review found that the funding allocations to the
states, territories, and local jurisdictions were properly calculated, and that
the application and award amounts for the state and territory awards were
consistent with the allocations. We also found that the BJA took prompt
actions to develop and issue the solicitations, set reasonable deadlines for
application submissions, review the applications, and make awards.
However, we noted that some applicants did not provide items required by
the solicitation, or provided incomplete information, but the BJA awarded the
funds regardless. The general response by BJA staff was that while it would
have been helpful to have the information, which included details such as
complete program narratives and budget breakdowns, they are not
precluded from awarding grants to applicants who fail to provide this
information. BJA officials told us that many of the missing items in the
applications were either not important or that BJA officials would work with
the applicants after the award to obtain the information.

     We concluded that in some instances it was reasonable for the BJA to
award the grant funds without first receiving all the information it requested.
However, by stating that the information was required and then not

                                        
                                       9

                                             
      

enforcing that requirement, the BJA caused the states that did comply to
expend considerable effort in meeting non-mandatory requirements.

      We believe the BJA should be consistent when it requires that
applicants provide certain elements of the application package as a condition
for receiving a formula grant award. Moreover, when the BJA has
determined certain information is essential and applicants have failed to
provide that information, the BJA should, at a minimum, prevent grantees
from using the awarded funds until the BJA receives the requested
information.

       We encourage the BJA to consistently ensure that applicants submit
the required information to enhance the probability that: (1) Byrne JAG
grant funds are appropriately used, (2) grantees implement projects within
the statutorily required project period, (3) grantees collect and report
appropriate performance measures, (4) Recovery Act funds are used
effectively, (5) recipients are accountable for the use of grant funds, and
(6) solicitation requirements are equally applied to all applicants.




                                       
                                     10 

                                            
      

                             OJP’s Response

      We provided OJP a pre-release version of this report. After reviewing
the report, OJP told us that BJA agrees that careful consideration of
"required" elements in formula grant solicitations is needed. In the future,
BJA plans to describe material as “required” and send back applications for
additional information when the "required" information is not included.
According to OJP, because the Byrne JAG Recovery Act program involved
formula awards, as opposed to competitive discretionary awards, BJA sought
to balance its responsibility to process awards quickly with the need for
sound financial management. Therefore, BJA used special award conditions
to withhold funding for those applicants who were delayed in submitting the
required information.




                                       
                                    11 

